Executive Report



Return to the USDOJ/OIG Home Page



Audit of Grants to Encourage Arrest Policies Arkansas Office of the Prosecutor Coordinator Little Rock, Arkansas
GR-80-00-006   
January 4, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Grants to Encourage Arrest Policies, Grant No. 97-WE-VX-0117, administered by the Arkansas Office of the Prosecutor Coordinator (PCO), for the period March 1, 1997, through December 31, 2000. The PCO received an initial award and one supplemental award totaling $780,556.  Our audit concentrated on but was not limited to the period March 1, 1997, through July 20, 1999.  

	The PCO generally complied with grant requirements related to grant expenditures, and financial reporting; however, we noted the following weaknesses: 

The Financial Status Reports and Categorical Assistance Progress Reports were not always submitted timely.

	The Financial Status Reports were not always accurate.

	Expenditures were not always authorized and properly classified.

	We questioned $75 as an unallowable entertainment expense.

	We questioned $327 in excess of the federal per diem rates.	

	We questioned $1,824 as an unsupported telephone expense.

These weaknesses are discussed in the Findings and Recommendations sections of this report.  Our audit Scope and Methodology are described in Appendix I.